CERTIFICATE OF COMPLIANCE
Case No.
Caption: Jenkins v. Nebraska
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 8,824 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 17, 2019.

Record Press, Inc.

Sworn to before me on
October 17, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
·
ires November 10, 2019

